         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Assisting Tribal Water
       Systems but Needs to Improve
       Oversight
       Report No. 08-P-0266

       September 16, 2008
Report Contributors:                                Ira Brass
                                                    Anthony Chirigotis
                                                    Jill Ferguson
                                                    Tim Roach
                                                    Danielle Tesch




Abbreviations

CCR           Consumer Confidence Report
CFR           Code of Federal Regulations
CWS           Community Water System
EPA           U.S. Environmental Protection Agency
HAA5          Haloacetic Acids
IOCs          Inorganic Chemicals
MBCI          Mississippi Band of Choctaw Indians
MCL           Maximum Contaminant Level
MSDH          Mississippi State Department of Health
OGWDW         Office of Ground Water and Drinking Water
OIG           Office of Inspector General
SDWA          Safe Drinking Water Act
SDWIS         Safe Drinking Water Information System
SOCs          Synthetic Organic Chemicals
TTHM          Total Trihalomethanes
VOCs          Volatile Organic Chemicals




Cover photo: Nano-filtration system and water system pipes at tribal drinking water facility
             (EPA OIG photos).
                       U.S. Environmental Protection Agency                                              08-P-0266
                                                                                                 September 16, 2008
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review
                                 EPA Assisting Tribal Water Systems
We conducted this evaluation     but Needs to Improve Oversight
to assess the U.S.
Environmental Protection
                                  What We Found
Agency’s (EPA’s) oversight
and assistance of tribal
community water systems          Tribal drinking water sample results in EPA files indicate that drinking water
(CWSs), and to independently     supplies consistently met regulatory requirements. Regional EPA staff also made
evaluate water quality at        correct compliance decisions with sample results that tribal CWSs provided.
selected drinking water          However, internal control deficiencies existed in administering EPA’s oversight
systems.                         of tribal CWSs in two of the five regions we reviewed. To varying degrees, tribal
                                 drinking water records in four of the five regions were incomplete due to a failure
Background                       to maintain oversight of system operations and/or poor records management.

EPA, rather than the States,     We sought to verify, through independently collected samples, that these tribal
has the responsibility for       CWSs did not exceed drinking water regulatory limits. Of the approximately
protecting human health and      2,300 independent samples analyzed, only 7 were above the limits. In those
the environment on tribal        cases, we informed regional staff and water system operators, who then took
lands. Approximately 600         follow-up actions.
tribal CWSs serve an
estimated 622,000 people.
EPA staff members provide         What We Recommend
these systems with technical
and other assistance so that     We recommend that the Assistant Administrator for Water (1) establish national
tribal CWSs maintain             and regional tribal drinking water program Standard Operating Procedures in
compliance with Safe             coordination with regional offices; (2) require Region 2 to submit a plan that
Drinking Water Act               corrects deficiencies in how it currently implements its tribal drinking water
requirements.                    program, including those identified in this report; and (3) direct regions to issue
                                 monitoring and reporting violations, take appropriate enforcement actions against
                                 tribal CWSs with health-based violations or who fail to monitor or submit
                                 monitoring reports, and enter violations into the Safe Drinking Water Information
For further information,         System.
contact our Office of
Congressional and Public         The Agency agreed with our recommendations.
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2008/
20080916-08-P-0266.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 16, 2008

MEMORANDUM

SUBJECT:               EPA Assisting Tribal Water Systems but Needs to Improve Oversight
                       Report No. 08-P-0266


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Benjamin Grumbles
                       Assistant Administrator
                       Office of Water


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project's staff days by the
applicable daily full cost billing rates in effect at the time – is $830,903.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Dan Engelberg at
202-566-0830 or engelberg.dan@epa.gov, or Ira Brass at 212-637-3057 or brass.ira@epa.gov.
EPA Assisting Tribal Water Systems                                                                                          08-P-0266
but Needs to Improve Oversight



                                  Table of Contents

Chapters
   1    Introduction ........................................................................................................     1

                Purpose .......................................................................................................    1
                Background .................................................................................................       1
                Noteworthy Accomplishments .....................................................................                   3
                Scope and Methodology..............................................................................                3

   2    EPA Needs to Improve Oversight of Tribal Drinking Water Systems ..........                                                5

                EPA Correctly Determined Compliance for Monitoring Reports
                     in Regional Files .................................................................................           5
                Regions Varied in Oversight of Tribal Drinking Water Systems ..................                                    6
                OIG Water Sample Results within Regulatory Limits ..................................                               9
                EPA and Other Organizations Assist in Tribal Water System Compliance .                                            10
                Conclusions and Recommendations ...........................................................                       11
                Agency Response and OIG Evaluation ......................................................                         12

   Status of Recommendations and Potential Monetary Benefits..............................                                        14



Appendices
   A    Details on Scope and Methodology..................................................................                        15

   B    Lab Slips Missing from Regional Files.............................................................                        19

   C    Agency Response ..............................................................................................            22

   D    Distribution .........................................................................................................    27
                                                                                                       08-P-0266




                                           Chapter 1
                                            Introduction

Purpose
                 We conducted this evaluation to assess the U.S. Environmental Protection
                 Agency’s (EPA’s) oversight and assistance of tribal community water systems
                 (CWSs), and to independently evaluate water quality at selected systems. We
                 focused on tribal CWSs because they are among the few systems that EPA
                 regions, rather than States, oversee. We sought answers to two questions:

                 1. What methods does EPA use to oversee compliance at community water
                    systems on tribal lands and how are data from these systems verified?

                 2. How well do community water systems on tribal lands monitor and report
                    compliance with national primary drinking water standards?

Background
                 EPA, rather than State government, has the responsibility for protecting human
                 health and the environment on tribal lands. The 1984 EPA Indian Policy
                 establishes nine principles to guide the Agency as it implements congressionally-
                 mandated responsibilities on tribal lands. The principles emphasize working
                 directly with tribal governments on a government-to-government basis,
                 recognizing tribal governments as primary parties for environmental policy
                 decisions, and encouraging/assisting tribes to assume regulatory and program
                 management responsibilities for their lands.

                 The Safe Drinking Water Act (SDWA) creates an umbrella of responsibilities
                 aimed at safeguarding the drinking water of the population. EPA’s regional
                 offices implement the SDWA1 for approximately 600 tribal CWSs, serving an
                 estimated 622,000 people.2 Tribal CWS operators collect water samples for
                 analysis by certified laboratories and then report those results to EPA. The Office
                 of Ground Water and Drinking Water (OGWDW) relies on drinking water staff
                 located in the regions to:

                 •    Determine whether tribal CWS sampling results are within regulatory limits,
                 •    Review and approve tribal CWS monitoring waiver applications,
1
  40 CFR (Code of Federal Regulations) 141.2 defines “State” as the agency of the State or tribal government that
has jurisdiction over public water systems. During any period when a State or tribal government does not have
primary enforcement responsibility pursuant to Section 1413 of SDWA, the term “State” means the Regional
Administrator, U.S. EPA.
2
  The Navajo Nation has authority to implement SDWA for 140 tribal systems and these were not evaluated in this
study.


                                                        1
                                                                                                      08-P-0266


                 •   Provide assistance to tribal CWSs to prevent violations from occurring, and
                 •   Take enforcement actions when drinking water regulations are violated.

                 EPA drinking water staff may issue violations when (1) a tribal CWS does not
                 conduct required monitoring or report sampling results or (2) a water sample
                 result exceeds the established maximum contaminant level (MCL). According to
                 the 1984 Indian Policy, EPA will work cooperatively with tribes to achieve
                 compliance. EPA considers direct enforcement action if there is a significant
                 threat to human health and the environment, if compliance is not achievable in a
                 timely manner, and if EPA cannot utilize other alternatives to correct the problem.

                 EPA has the authority to grant monitoring waivers or reduce monitoring
                 requirements if there is a limited likelihood of a contaminant being in a tribal
                 CWS’s source water.3 Once a waiver is granted, the system is excused from
                 monitoring for a specified period of time. This reduces expenses for tribal CWSs
                 while maintaining human health protections. To retain consistency in the
                 decision-making process, one region we reviewed relies upon written guidelines
                 to evaluate monitoring waiver applications from tribal CWSs. Region 9 has a
                 detailed wavier application procedure for tribal CWSs requesting reductions in
                 monitoring requirements.

                 EPA also implements technical and compliance assistance programs to help tribal
                 CWSs protect human health and reduce incidents of drinking water violations.
                 These programs include operator training, sanitary surveys, source water
                 protection, technical assistance, and infrastructure grants. In the past 11 years, the
                 Drinking Water State Revolving Fund Set Aside grant program has allotted
                 approximately $135 million to improve tribal CWS infrastructure.

                 The Agency works to measure the effects of its enforcement and compliance
                 assistance programs by tracking how many tribal CWS customers consume water
                 that meets all drinking water standards. In the 2006 – 2011 Strategic Plan, EPA
                 established a national goal that 86 percent of tribal CWS customers will drink
                 water that meets all health-based standards by 2011. Compliance assistance
                 efforts of EPA and other organizations help achieve this national performance
                 goal. The Indian Health Service, through collaboration with tribes, identifies
                 CWS infrastructure needs and enters these data in the Sanitation Deficiency
                 System. The Bureau of Reclamation provides technical and financial assistance
                 to tribal systems in the Western United States. EPA uses the information about
                 health-based violations reported in the Safe Drinking Water Information System
                 (SDWIS) to track and report progress to Congress on the performance of all water
                 systems at a national and regional level.



3
  40 CFR 141 outlines the monitoring requirements for the drinking water contaminants regulated by EPA. It also
describes the conditions under which a monitoring waiver can be issued by the “State” and under which “States” can
reduce monitoring requirements.


                                                        2
                                                                                                                                  08-P-0266


Noteworthy Accomplishments
         EPA has completed a number of noteworthy activities in its efforts to assist tribal
         CWSs. The following is a summary of some of their most recent
         accomplishments.

         •   The OGWDW issued the Tribal Drinking Water Operator Certification
             Guidelines in May 2005 to help assess, track, and address certification needs
             on tribal lands.

         •   The OGWDW developed a new Website that provides a consolidated list of
             drinking water classroom and on-line training opportunities that may be of
             interest to tribes and tribal operators.

         •   In June 2007, EPA launched the new Tribal Portal, a Website that provides
             users with consolidated information about EPA tribal policies, contacts,
             programs, and funding sources.

         •   Starting in 2003, an EPA contractor performed data verifications of the tribal
             drinking water records in the regions we visited.

Scope and Methodology
         We employed a variety of methods to evaluate the performance of tribal CWSs
         and the processes used by EPA to oversee compliance of these systems. We
         selected 25 tribal CWSs with no reported violations between 1997 and May 2007
         from the SDWIS database (see Figure 1-1 and Appendix A, Table A-1).

         Figure 1-1: Distribution of Selected 25 Tribal CWSs among EPA Regions
                          Red Lake Band of           Menominee Indian
                          Chippewa Indians           Tribe of Wisconsin
                          Little Rock                Keshena                 Grand Traverse Band of
                          Ponemah                    Neopit                  Ottawa and Chippewa Indians
                          Redby/Red Lake             Trailer Court           Peshawbestown

                                                                                                           Seneca Nation of Indians
                                                                                                           Cattaragus – Richardson Road
                                                                                                           Cattaragus – Erie County
                                                                                                           Hoag’s Mobile Home Park
                                                                                                           Hoag’s Laundry
                                                                                                           Jimersontown
                                                                                                           Steamburg



                                                                                                   Mashantucket Pequot
                                                                                                   Tribal Nation
                                                                                                   Mashantucket Pequot



                 Oglala Sioux Tribe                                                          Seminole Tribe of Florida
                 American Horse Creek                                                        Immokalee

                                  Rosebud Sioux Tribe                 Mississippi Band of
                                  Corn Creek                          Choctaw Indians
                                  Horse Creek                         Bogue Chitto
                                  Mission                             Conehatta
                                  Swift Bear                          Pearl River
                                  Sicangu Village Homes               Tucker


         Source: EPA's map of its regions with the locations of tribal CWSs added by OIG staff




                                                                3
                                                                                                         08-P-0266


                  We requested and reviewed the monitoring results for national primary drinking
                  water contaminants submitted by the 25 tribal CWSs to regional staff (see
                  Appendix A, Table A-2, for the data we requested). We conducted interviews
                  with personnel from Headquarters, Regions 1, 2, 4, 5, and 8, and tribal CWSs
                  about compliance assistance, operation and maintenance challenges, alternate
                  sources of assistance outside EPA, and individual monitoring requirements. We
                  also interviewed drinking water staff from Region 9 because this Region oversees
                  the largest number of tribal systems.

                  In addition, we contracted with an environmental services company to collect and
                  analyze drinking water samples from these systems. Personnel from the Office of
                  Inspector General (OIG) accompanied the contractor on site visits. We collected
                  samples from both the point of entry and the distribution system at 19 of the 25
                  tribal CWSs.4 At five systems we only collected samples from the point of entry.
                  This situation was due to time requirements for transporting samples to the
                  laboratory or to a lack of access to sampling points in the distribution system. At
                  one system we did not collect any samples because it permanently closed prior to
                  our site visit. Appendix A, Table A-3, contains a list of the tests we did not
                  perform at the tribal CWSs.

                  A laboratory analyzed the samples for contaminants regulated under EPA’s
                  National Primary Drinking Water Standards with the exception of lead and
                  copper.5 EPA protocols were followed for sample collection and analysis. These
                  results are for information purposes and cannot substitute for regular drinking
                  water sampling requirements. In cases where these results were above regulatory
                  limits, we contacted regional staff and water system operators to discuss follow-
                  up actions.

                  Due to the small sample size and methods used to select the tribal CWSs, the
                  results of this evaluation cannot be used to generalize drinking water quality at
                  other tribal systems. The results of our independent samples were for information
                  purposes and did not substitute for regular drinking water sampling requirements.
                  We conducted this review in accordance with generally accepted government
                  auditing standards. Those standards require that we plan and perform the review
                  to obtain sufficient, appropriate evidence to provide a reasonable basis for our
                  findings and conclusions based on our objectives. In addition, we discussed
                  internal controls regarding tribal water system compliance data.6 We believe that
                  the evidence obtained provides a reasonable basis for our findings and
                  conclusions based upon our objectives. We performed our review from June
                  2007 to May 2008.
4
  The point-of-entry sample is a type of water sample taken after treatment and before reaching the first consumer.
The distribution system is a network of pipes leading from a treatment plant to customers’ plumbing systems.
5
  The team did not include lead and copper in the scope of this evaluation because sampling requires advanced
planning to coordinate site visits with homeowners.
6
  Internal controls are used to prevent fraud, waste, and abuse of program/agency assets. It also includes the
processes for planning and directing program operations and systems for measuring, reporting, and monitoring
program performance.


                                                          4
                                                                                                                                                 08-P-0266




                                                     Chapter 2
            EPA Needs to Improve Oversight of
              Tribal Drinking Water Systems
          Records of tribal drinking water sample results in EPA files indicate that drinking
          water supplies consistently met regulatory requirements. Regional drinking water
          staff also made correct compliance decisions with the sample results provided by
          tribal CWSs. However, internal control deficiencies occurred in administering
          EPA’s oversight of tribal CWSs in two of the five regions we reviewed. To
          varying degrees, tribal drinking water records in four of the five regions were
          incomplete due to a failure to maintain oversight of system operations and/or poor
          records management.

EPA Correctly Determined Compliance for Monitoring Reports in
Regional Files
          Our examination of tribal CWS historical data in regional files (see Appendix A,
          Table A-2) confirmed that EPA drinking water staff interpreted sample results to
          draw correct compliance determinations. However, regions were only able to
          provide us with all of the data we requested for 7 of the 25 tribal CWSs in this
          evaluation. Because regional files were missing approximately 18 percent of the
          sample results requested (861 of 4,910 sample results), we were unable to
          evaluate EPA’s performance in these cases. Figure 2-1 summarizes the amount of
          requested compliance records we collected as well as the missing data by region.

          Figure 2-1: Percentage of Requested Tribal Drinking Water Sample Results
          Missing from Regional Files
                                                                                             29                 0
              100%
                90%            155               169                                                                           861
                80%
                70%
                60%
                                                                     508                                                              Missing Data
                50%                                                                     1174                   609
                               832               941                                                                                  Present Data
                40%                                                                                                            4049

                30%
                                                                     493
                20%
                10%
                0%
                                                0)




                                                                    1)




                                                                                        3)




                                                                                                                              0)
                           7)




                                                                                                           9)
                                             11




                                                                 00




                                                                                     20




                                                                                                                            91
                          98




                                                                                                          60
                                          1,




                                                              1,




                                                                                  1,




                                                                                                                         4,
                      =




                                                                                                      =
                                      =




                                                          =




                                                                              =




                                                                                                                     =
                     (n




                                                                                                  (n
                                     (n




                                                         (n




                                                                             (n




                                                                                                                    (N
                 1




                                                                                                  8
                                  2




                                                      4




                                                                          5
                 n




                                                                                              n




                                                                                                                ns
               io




                                                                                             io
                                n




                                                     n




                                                                         n




                                                                                                              io
                             io




                                                 io




                                                                     io
             eg




                                                                                        eg




                                                                                                            eg
                           eg




                                               eg




                                                                   eg
            R




                                                                                       R




                                                                                                           R
                           R




                                             R




                                                                 R




                                                                                                          5
                                                                                                      ll
                                                                                                      A




          Source: OIG analysis of requested data



                                                                              5
                                                                                 08-P-0266


        We identified three reasons why the records were missing from EPA files:

           1) Tribal CWSs failed to monitor for contaminants,
           2) State involvement in tribal CWS oversight prevented monitoring
              information from reaching the region, and
           3) EPA drinking water staff members were unable to locate records or
              records were lost over time.

       For the approximately 4,000 monitoring results we collected from EPA’s files, we
       found that EPA staff made no errors in determining compliance with drinking
       water regulations. For the results we reviewed, tribal CWSs submitted sampling
       results in prescribed timeframes in all but two occasions. In Region 5, two tribal
       CWSs submitted radionuclide sample results prior to the June 2000 through
       December 2003 grandfathered period. The samples, taken outside the prescribed
       sampling period, were within regulatory limits.

Regions Varied in Oversight of Tribal Drinking Water Systems
       The five regions varied in the quality of oversight they provided to tribal CWSs.
       Region 1’s records were complete except for missing synthetic organic chemical
       (SOC) samples caused by an error in instructions from the Region to the tribal
       system. Regions 5 and 8 provided complete or near-complete records for tribal
       CWSs located in those regions. Drinking water staff in these Regions attribute
       their success to operator training programs and to regular communication with
       them about sampling requirements. We found greater amounts of missing records
       in Regions 2 and 4. In Region 2, tribal CWSs failed to monitor for certain
       contaminants. Moreover, Region 2 chose not to enter known monitoring
       violations into SDWIS and did not conduct enforcement actions against the
       systems that committed these violations. In Region 4, State participation in tribal
       CWS oversight prevented monitoring information from reaching the Region.
       Without these sampling results, EPA was unable to determine compliance with
       drinking water regulations.

       Region 2 Did Not Issue Monitoring Violations to Tribal Systems or
       Update SDWIS

       Region 2 is missing approximately 15 percent of the drinking water sample results
       we requested for 6 tribal CWSs (169 of 1,110 records). See Appendix B, Table
       B-2, for a summary of the records missing from Region 2 files. Region 2 staff
       said the missing data are a result of water systems failing to monitor for regulated
       contaminants over many compliance periods. For all six tribal CWSs we
       reviewed, Region 2 did not take enforcement actions when these systems failed to
       collect samples and submit results for compliance determination. Region 2 also
       did not report these violations into SDWIS, which stores information about
       drinking water systems.




                                        6
                                                                                                         08-P-0266


                 While drinking water regulations require water systems to annually monitor for
                 nitrate, Region 2 staff confirmed that regional files are missing nitrate results for
                 four of the six tribal CWSs for the 2004, 2005, and 2006 compliance periods.
                 This required test is important because excessive nitrate levels in children can
                 interfere with the oxygen-carrying capacity of their blood. Based on sampling
                 results from nearby systems using the same aquifer, regional personnel believed
                 that the quality of drinking water in these four tribal CWSs was good. Although
                 none of these systems tested above the established MCL for nitrate in our
                 independently collected samples, regulations require that regions take
                 enforcement actions when water systems do not monitor and report results to
                 EPA.

                 Moreover, we believe customers are likely unaware that their systems failed to
                 monitor for nitrate and other contaminants because these systems never provided
                 their customers with annual Consumer Confidence Reports (CCRs) in 2004, 2005,
                 or 2006, as required under SDWA.7 Had the water systems issued these annual
                 reports, they would have also been required to detail steps to correct monitoring
                 problems in the future. Region 2 confirmed that it also did not take enforcement
                 actions against the systems that failed to issue CCRs but plans to work with them
                 to ensure that tribal customers receive CCRs detailing 2007 water system
                 performance.

                 While we found incidents of monitoring and reporting problems with tribal CWSs
                 in Region 2, EPA staff informed one system of its concerns. In May 2007,
                 Region 2 notified the Shelton Park CWS about the physical condition of its
                 system, positive coliform bacteria samples, and handling and disposing of
                 household chemical waste. In a letter, Region 2 stated, “the well used to supply
                 water to the residents of Shelton Park is highly vulnerable to significant
                 contamination from both human and animal fecal waste and we (Region 2) are
                 concerned that the water is not being adequately disinfected.”

                 Region 2 personnel reported to us that while concerns have been expressed to
                 Shelton Park, monitoring violations for this and other tribal CWSs have not been
                 recorded in SDWIS for the past 10 years. Region 2’s Drinking Water Section
                 Chief reported that this stems from an understanding within the tribal drinking
                 water program that staff would focus its resources on compliance assistance rather
                 than enforcement actions.

                 In addition to missing enforcement actions in SDWIS, we found water system
                 inventory errors with tribal CWSs. Inventory data, such as water source and
                 population size, are information that regions use to determine sampling
                 requirements. If this information is incorrect, it can affect EPA’s oversight. For
                 example, SDWIS identifies the Cattaraugus-Richardson Road tribal system and

7
  40 CFR 141.51 outlines the information CWSs must include in their annual CCRs. In addition to distributing
copies to customers, tribal CWSs must mail a copy of the report to the appropriate EPA region and certify that the
report was delivered to customers by the July 1st deadline.


                                                         7
                                                                        08-P-0266


Cattaraugus-Erie County system as two distinct CWSs. Region 2 staff reported
that the Cattaraugus-Richardson Road system is actually part of the larger
Cattaraugus-Erie County system.

Region 4 Not Informed of Oversight Activities Taken by Mississippi

Region 4 is missing approximately 51 percent of the drinking water sample results
we requested for 5 tribal CWSs (508 of 1,001 records). The tribal CWSs in
Mississippi have an atypical relationship with the State’s drinking water program.
While Region 4 has informally accepted regulatory decisions made by the State
for these water systems, it is unaware of the extent of Mississippi’s regulatory
role.

Both Region 4 and the Mississippi State Department of Health (MSDH) regulate
the four water systems operated by the Mississippi Band of Choctaw Indians
(MBCI). As the primary regulatory authority, Region 4 can issue waivers to these
tribal CWSs and/or reduce monitoring requirements based on the results of
monitoring samples. Because these four tribal CWSs participate in Mississippi’s
sampling program, MSDH also serves a regulatory role by creating monitoring
schedules, issuing monitoring waivers, and reducing monitoring requirements for
regulated drinking water contaminants based on SDWA requirements.

Region 4 accepts monitoring waivers issued by MSDH for these tribal CWSs
because Mississippi has an EPA-approved drinking water and waiver program.
Drinking water regulations do not preclude Region 4, as the primacy agency for
tribal CWSs, from honoring waivers issued by another primacy agency, such as
MSDH. Under drinking water recordkeeping requirements, Region 4, as the
primacy agency for tribal CWSs, is required to keep documentation of waivers
and decisions to reduce monitoring requirements in its files for 12 years. Region
4 could not provide documentation for these regulatory decisions made by
MSDH, which accounts for 79 percent of data we categorize as missing (401 of
508 pieces of monitoring data) (see Appendix B, Table B-3). If Region 4 had
documentation of MSDH’s regulatory decisions, we would only categorize
approximately 11 percent of the data we requested as missing.

Region 4 and MSDH both include the four tribal CWSs in their versions of the
SDWIS database, but do not reconcile the violation and enforcement-related
information reported in the individual databases. As a result, discrepancies
occurred between the two data systems. For example, according to the MSDH
information uploaded to SDWIS, the Pearl River CWS had a health-based total
coliform violation in August 2005. However, Region 4’s database did not contain
this violation until after we reviewed SDWIS data in May 2007. Region 4’s
database shows that Pearl River achieved Federal compliance for this violation in
September 2005.




                                 8
                                                                                                     08-P-0266


                 Regions 1, 5, and 8 Consistently Tracked Monitoring Requirements

                 With minor exceptions, we found that Regions 1, 5, and 8 had generally good
                 oversight and records management practices. Because of this we were able to
                 confirm that the regions made correct compliance determinations for the tribal
                 CWSs in our sample. Region 1’s files were complete except for second
                 consecutive quarterly samples for Synthetic Organic Chemicals for the
                 compliance periods 1999-2001, 2002-2004, and 2005-2007. In Region 5,
                 29 of 1,203 sampling results were missing for the 7 tribal CWSs in our sample.
                 Region 8 provided complete compliance histories for the six tribal CWSs in our
                 sample. See Appendix B for additional details about missing data.

OIG Water Sample Results within Regulatory Limits
                 We sought to verify, through independently collected samples, that these tribal
                 CWSs did not exceed MCLs for national primary drinking water regulations.
                 Nearly all the water samples we collected were below the MCLs established in
                 the drinking water standards and were consistent with the data we reviewed from
                 regional files. Of the approximately 2,300 independent samples analyzed, only 7
                 were above regulatory limits. In the cases where results were above these limits,
                 we informed regional staff (in Regions 5 and 8) and water system operators, who
                 then took follow-up actions. See Table 2-1 for a summary of sample results and
                 follow-up actions.

 Table 2-1: Number of OIG Samples above Regulatory Limit
                                                                     # of OIG
                                     Contaminant                     Samples
                                        Above          # of OIG       Above          Region and Tribal
   Tribal CWS       Location and      Regulatory       Samples      Regulatory        CWS Follow-up
      Name          EPA Region          Limit          Collected       Limit             Actions
   Ponemah          Red Lake, MN     Total coliform        4             4          • Water system collected
                    EPA Region 5                                                      4 additional samples
                                                                                   • All were negative for
                                                                                      total coliform
   Swift Bear       Rosebud, SD      Total coliform        4             1         • Water system collected
                    EPA Region 8                                                      1 additional sample
                                                                                   • This sample was
                                                                                      negative for total
                                                                                      coliform
   Corn Creek       Rosebud, SD      Total coliform        3             1         • Water system collected
                    EPA Region 8                                                      4 additional samples
                                                                                   • All were negative for
                                                                                      total coliform
   American         Kyle, SD         Arsenic               1             1         • Region 8 is aware of
   Horse Creek      EPA Region 8                                                      elevated arsenic levels
                                                                                   • The water system is
                                                                                      under an increased
                                                                                      monitoring schedule
  Source: OIG analysis of independent samples and EPA region/tribal CWS operator follow-up actions




                                                      9
                                                                                                        08-P-0266


                 Once we alerted EPA regional staff and water system operators of the six positive
                 coliform samples, the systems collected and analyzed additional samples. A
                 single coliform exceedance does not constitute a violation of the drinking water
                 standard. The results from these re-tests showed an absence of total coliform in
                 the water.

                 The other exceedance of a drinking water standard occurred at the American
                 Horse Creek CWS in South Dakota. The sample result tested above the
                 established 0.010 mg/L MCL for arsenic at 0.014 mg/L. Prior to the
                 implementation of the new standard in 2006, the MCL for arsenic was 0.050
                 mg/L. Unrelated to these results, Region 8 compliance staff had already placed
                 the water system on an increased monitoring schedule, as is required by the new
                 arsenic drinking water regulation. According to the water system manager,
                 American Horse Creek will be connected to a new source by the end of 2009.

EPA and Other Organizations Assist in Tribal Water System
Compliance
                 In addition to its regulatory oversight responsibilities, EPA implements technical
                 and compliance assistance programs and collaborates with other organizations so
                 that tribal CWSs can maintain or improve their performance. In EPA’s most
                 recent strategic planning document, the 2006 – 2011 Strategic Plan, the Agency
                 committed to working with other Federal agencies to support developing drinking
                 water and wastewater infrastructure in Indian country.8 All six regions we
                 interviewed reported utilizing services of other Federal agencies and/or non-profit
                 groups to improve tribal CWSs’ infrastructure and performance.

                 Regions helped tribal CWSs maintain compliance with monitoring requirements
                 by providing schedules for sample collections; assessing the technical,
                 managerial, and financial capacities of water systems; conducting operator
                 training courses; and answering technical questions about regulations.
                 While water system operators told us they were generally satisfied with the
                 assistance EPA provides, tribal water staff expressed a desire for more training
                 assistance.

                 EPA’s collaboration with its contractors and Federal partners also help to improve
                 tribal CWS performance. EPA funds State Rural Water Association affiliates to
                 provide training and technical assistance to small systems, including tribal CWSs.
                 Three of the six regions we interviewed told us they consider information in the
                 Indian Health Service’s Sanitation Deficiency System when prioritizing tribal

8
 EPA has committed to reducing the number of tribal households that do not have access to safe drinking water and
basic sanitation by 50 percent by 2015. This commitment is in response to the developmental goals agreed to at the
2002 United Nations World Summit on Sustainable Development held in Johannesburg, South Africa. EPA works
with the following Federal agencies to improve tribal access to safe drinking water and basic sanitation: Department
of Agriculture, Department of Health and Human Services, Department of Housing and Urban Development, and
Department of the Interior.


                                                        10
                                                                                               08-P-0266


                drinking water system infrastructure needs and Drinking Water State Revolving
                Fund infrastructure grants.

                Even with EPA’s and other organizations’ assistance provided to tribal CWSs,
                many of the water system managers we interviewed told us that their systems face
                similar challenges as operators at other small water systems have described to us
                in the past.9 Some of these include the operators’ desire for more training and
                technical assistance, water rates that do not cover the costs of operation,
                customers not paying their bills, governing bodies’ reluctance to pay for
                infrastructure improvements, and low pay for water operators. However, based
                on our review of regional files and independent samples, the tribal CWSs we
                reviewed are able to provide their customers with drinking water that meets
                Federal standards.

Conclusions and Recommendations
                The six regions whose tribal drinking water programs we reviewed provide tribal
                CWSs with a variety of technical and other assistance activities that help these
                systems provide safe drinking water to the public. Our independent samples show
                that, at the time of our site visits, tribal customers received drinking water that
                met health-based standards. Good source water, attentive water system staff, and
                assistance from EPA and others were noted as helping tribal CWSs with their
                performance. But incomplete compliance records and failures to issue violations
                point to regional internal control deficiencies. Internal controls are an important
                safeguard for ensuring that systems operate as intended. Deficiencies in these
                controls may indicate that the systems are vulnerable to failure, resulting in
                increased risk to public health. To improve its internal controls, EPA
                Headquarters needs to clearly communicate to regions what is required and what
                is allowed in terms of their oversight of tribal CWSs.

                Region 4 needs to increase communication and coordination with MSDH for
                tribal CWSs operated by the MBCI. While drinking water regulations do not
                prevent Region 4 from honoring decisions made by MSDH to reduce monitoring
                or issue waivers, without documentation we cannot determine if Region 4 staff
                made timely and accurate compliance determinations. Greater coordination and
                communication would reduce the amount of missing compliance data in
                Region 4’s files, as well as improve the accuracy and completeness of SDWIS
                entries. Implementing a formal waiver policy, similar to Region 9’s Tribal
                Drinking Water Monitoring Waiver Program, would help to ensure that MSDH
                issues waivers and reduces monitoring requirements based on statutory
                regulations.

                Region 2’s decision to not issue monitoring violations is counter to Agency
                oversight responsibilities under SDWA. This undermines the transparency that
9
 EPA OIG Report No. 2006-P-00026, Much Effort and Resources Needed to Help Small Drinking Water Systems
Overcome Challenges, May 30, 2006.


                                                   11
                                                                                   08-P-0266


         should exist between water systems and their customers, especially since water
         systems are required to report all violations in their annual CCRs. The absence of
         monitoring violations in SDWIS also affects EPA’s overall efforts to improve the
         completeness of this database. This database, which is also available to the
         public, does not currently reflect the compliance history for all six tribal CWSs
         we reviewed in Region 2. EPA needs this database to contain accurate and
         complete drinking water violation data so that it can monitor its progress at
         meeting performance goals and report complete and unbiased information to
         Congress and the public. The fact that no one in Region 2 addressed longstanding
         issues is a serious oversight.

         The Office of Water needs to address the issues identified in Regions 2 and 4 at a
         national level, as these or related problems may exist in other regional programs.

         We recommend that the Assistant Administrator, Office of Water:

         2-1    Establish national and regional tribal drinking water program Standard
                Operating Procedures in coordination with regional offices. The Standard
                Operating Procedures should include:

                    a) Documenting waiver determinations made by regions, and where
                       appropriate, similar determinations made by States;
                    b) Documenting the roles, contractual relationships, and agreements
                       between EPA, States, and tribes where the three parties share
                       responsibilities of the tribal drinking water program;
                    c) Following records retention guidelines as required by 40 CFR 141
                       and 40 CFR 142 and guidance from the Office of Water; and
                    d) Entering violations into SDWIS.

         2-2    Require Region 2 to submit a plan that corrects deficiencies in how it
                currently implements its tribal drinking water program, including those
                identified in this report. Once submitted, ensure that all the elements of
                the plan are completed.

         2-3    Direct regions to issue monitoring and reporting violations, take
                appropriate enforcement actions against tribal CWSs with health-based
                violations or who fail to monitor or submit monitoring reports, and enter
                violations into SDWIS.

Agency Response and OIG Evaluation
         The Assistant Administrator, Office of Water, responded to our draft report on
         September 4, 2008 (see Appendix C). He agreed with our recommendations and
         provided information about actions that have and will be taken to address them.
         Based on the Office of Water’s comments, we made changes to the report as
         appropriate.


                                         12
                                                                         08-P-0266


In response to our first recommendation, the Office of Water states that it always
expected that EPA regions implementing the tribal drinking water program should
follow the same requirements and guidelines that EPA develops for States.
Because this expectation has never been formally documented, the Office of
Water agreed that it is appropriate to do so in formal guidance. The Office of
Water plans to issue guidance regarding these procedures in Fiscal Year 2009.
Additionally, the Office of Water states that Region 4 has already taken steps to
address issues raised in the report; it is writing a formal waiver policy, creating
records for tribal systems to document specifics of issued waivers, developing an
electronic filing system, and coordinating with MSDH.

In response to our second recommendation, the Office of Water states that it
expects to develop a plan to help Region 2 make significant improvements to its
tribal drinking water program in Fiscal Year 2009. It plans to implement the
improvement plan shortly after it is completed. The recent installation of
SDWIS/STATE software on Region 2’s server will help formalize the data
management and reporting process. Additionally, Region 2 plans to make
SDWIS/STATE data available to the public through Drinking Water Watch.

In response to our third recommendation, the Office of Water agrees that it is
appropriate to document its expectations that EPA regions implementing the tribal
drinking water program should follow the same requirements and guidelines that
EPA develops for States. The Office of Water plans to issue guidance regarding
these procedures in Fiscal Year 2009.

We view these as positive actions in response to our recommendations. We
expect the Office of Water will assure its planned guidelines (Standard Operating
Procedures) address the needed corrective actions identified in our report and that
regional offices implement the guidelines.




                                 13
                                                                                                                                      08-P-0266




                              Status of Recommendations and
                                Potential Monetary Benefits
                                                                                                                            POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                Planned
Rec.    Page                                                                                                   Completion   Claimed    Agreed To
No.      No.                          Subject                            Status1        Action Official           Date      Amount      Amount

2-1       12    Establish national and regional tribal drinking water      O        Assistant Administrator,
                program Standard Operating Procedures in                                Office of Water
                coordination with regional offices. The Standard
                Operating Procedures should include:
                  a)     Documenting waiver determinations made
                         by regions, and where appropriate, similar
                         determinations made by States;
                  b)     Documenting the roles, contractual
                         relationships, and agreements between
                         EPA, States, and tribes where the three
                         parties share responsibilities of the tribal
                         drinking water program;
                  c)     Following records retention guidelines as
                         required by 40 CFR 141 and 40 CFR 142
                         and guidance from the Office of Water;
                         and
                  d)     Entering violations into SDWIS.

2-2       12    Require Region 2 to submit a plan that corrects            O        Assistant Administrator,
                deficiencies in how it currently implements its tribal                  Office of Water
                drinking water program, including those identified in
                this report. Once submitted, ensure that all the
                elements of the plan are completed.

2-3       12    Direct regions to issue monitoring and reporting           O        Assistant Administrator,
                violations, take appropriate enforcement actions                        Office of Water
                against tribal CWSs with health-based violations or
                who fail to monitor or submit monitoring reports,
                and enter violations into SDWIS.




 O = recommendation is open with agreed-to corrective actions pending
 C = recommendation is closed with all agreed-to actions completed
 U = recommendation is undecided with resolution efforts in progress




                                                                               14
                                                                                              08-P-0266


                                                                                        Appendix A

                   Details on Scope and Methodology
We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the review to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our objectives.
Due to the small sample size and methods used to select the tribal CWSs, the results of this
evaluation cannot be used to generalize drinking water quality at other tribal systems.

Criteria Used to Select Tribal Community Water Systems
We reviewed the tribal portion of EPA’s SDWIS for community water systems with perfect
compliance histories for the last 10 years (1997 to May 2007). Systems with perfect compliance
histories do not have monitoring and reporting or health-based violations during this timeframe.
We sorted the identified water systems by location and population, and selected final systems for
review based on these criteria. We expanded our sample of tribal CWSs by selecting other water
systems with perfect compliance histories operated and managed by tribes with the largest
populations served. The results of our independent samples were for information purposes and
did not substitute for regular drinking water sampling requirements. Our final sample of tribal
CWSs included 25 systems operated by 9 tribal nations (see Table A-1).

Table A-1: Tribal CWSs Included in the OIG Sample
                                                                             Public Water
                                                                                System
                                                                Population   Identification     EPA
            Tribal CWS Name                      Location        Served         Number         Region
 Mashantucket Pequot                         Mashantucket, CT       41,000     10106001           1
 Shelton Park (Hoag's Mobile Home Park)      Salamanca, NY             125     20011102           2
 Hoag's Laundry                              Salamanca, NY             155     20011103           2
 Cattaraugus - Richardson Rd. Water Supply   Salamanca, NY             300     20000002           2
 Steamburg Water System                      Salamanca, NY             300     20000004           2
 Jimersontown Water System                   Salamanca, NY             800     20000001           2
 Cattaraugus – Erie County CWS               Salamanca, NY           2,800     20000008           2
 Seminole Utilities Immokalee                Hollywood, FL           3,101     41200004           4
 Choctaw - Conehatta                         Conehatta, MS             474     42800001           4
 Choctaw – Bogue Chitto                      Bogue Chitto, MS          597     42800002           4
 Choctaw – Tucker                            Tucker, MS                752     42800003           4
 Choctaw - Pearl River                       Choctaw, MS             1,175     42800004           4
 Peshawbestown                               Suttons Bay, MI         2,135     55293601           5
 Little Rock                                 Red Lake, MN              236     55294604           5
 Redby/Red Lake                              Red Lake, MN            1,863     55294602           5
 Ponemah                                     Red Lake, MN              371     55294603           5
 Keshena                                     Keshena, WI             3,500     55295502           5
 Neopit                                      Keshena, WI               675     55295503           5
 Trailer Court                               Keshena, WI                68     55295504           5




                                                    15
                                                                                           08-P-0266


Table A-1: Tribal CWSs Included in the OIG Sample (continued)
                                                                          Public Water
                                                                             System
                                                            Population    Identification     EPA
           Tribal CWS Name                   Location        Served          Number         Region
 Mission Water System                    Rosebud, SD              1,341      84690532          8
 Horse Creek Water System                Rosebud, SD                312      84690516          8
 Swift Bear                              Rosebud, SD                260      84690491          8
 Corn Creek                              Rosebud, SD                180      84690492          8
 Sicangu Village Homes                   Rosebud, SD                100      84690531          8
 American Horse Creek                    Pine Ridge, SD           1,283      84690023          8
Source: OIG analysis of SDWIS data


Interviews with EPA Region Tribal Drinking Water Staff
We interviewed tribal drinking water staff located in Regions 1, 2, 4, 5, 8, and 9 about their
oversight and assistance activities, including:
   • The types of oversight and assistance provided to tribal CWSs,
   • The availability of policy documents that direct regional interactions with tribes,
   • Formal reviews of data submitted by tribal CWSs to determine if data are accurate and
       complete,
   • The constraints to providing oversight and assistance to tribal CWSs, and
   • Sources of non-EPA (other Federal agencies and nonprofit organizations) assistance
       available to tribal CWSs and how a region coordinates assistance efforts.

We also asked staff in Regions 1, 2, 4, 5, and 8 questions specific to the selected tribal CWSs in
each region:
   • Contact information for the tribal leaders and water system operators,
   • What factors contribute to the tribal CWSs’ perfect compliance history over the last
       10 years, and
   • The results of the most recent sanitary survey or visit to the tribal CWS.

Review of Tribal CWS-Related Documents and Analysis of Historic
Drinking Water Data
As part of our evaluation, we requested and reviewed a variety of documents related to the
selected tribal CWSs, such as compliance reports, sanitary survey results, data verifications, and
operator training and certification records. We also requested historic drinking water data for the
contaminants regulated by EPA under its National Primary Drinking Water Regulations from
each of the 25 tribal CWSs (see Table A-2).




                                                16
                                                                                                              08-P-0266


Table A-2: Contaminant Data Requested from EPA Regions by OIG

               Contaminant Group                           Compliance Periods Requested by OIG
    Total Coliform and Disinfectants                 January 2007 to June 2007 (monthly reports)
    Combined Filter Effluent Turbidity,              January 2007 to June 2007 (monthly reports) –
    Individual Filter Effluent Turbidity             Requested for ground water system under the
                                                     influence of surface water in Region 1
    Disinfection Byproducts (Total                   2004, 2005, 2006, and 20071 (annual reports)
    Trihalomethanes -- TTHM and
    Haloacetic Acids -- HAA5)
    Nitrate and Nitrite                              2004, 2005, 2006, and 20071 (annual reports)
    Inorganic Chemical (IOC)                         1999-2001, 2002-2004, and 2005-20072
                                                     (triennial reports)
    Synthetic Organic Chemical (SOC)                 1999-2001, 2002-2004, and 2005-20072
                                                     (triennial reports)
    Volatile Organic Chemical (VOC)                  1999-2001, 2002-2004, and 2005-20072
                                                     (triennial reports)
    Radionuclides                                    June 2000-December 2003, 2004-2007
1
  The 2007 annual reports for nitrate, nitrite, and disinfection byproducts were not due until after the end of
the year. Not all water systems had submitted their results at the time of our information request.
2
  The 2005-2007 IOC, SOC, and VOC results were not due until after the end of the year. Not all water
systems had submitted their results at the time of our information request.
Source: OIG information requests sent to Regions 1, 2, 4, 5, and 8


Drinking Water Sample Collection and Analysis
We tested the drinking water quality of each of the 25 tribal CWSs for all of the contaminants
included in the National Primary Drinking Water Regulations (except lead and copper). We
contracted with an environmental services company to collect and analyze drinking water
samples from these systems. At most tribal CWSs (19 of 25), the team collected samples from
the point of entry and within the distribution system. At five systems we only collected samples
from the point of entry because of time needed to transport samples to the laboratory or lack of
access to sampling points in the distribution system. At one system we did not collect any
samples because it permanently closed prior to our site visit. See Table A-3 for the tests we did
not perform at the tribal CWSs.




                                                            17
                                                                                                  08-P-0266


Table A-3: Independent Samples Not Collected by OIG
      Sampling Point               Tribal CWS                      Regulated Contaminants
    Point of Entry            Hoag's Laundry, NY1            Inorganic Chemicals (IOCs)
                                                             Synthetic Organic Chemicals (SOCs)
                                                             Volatile Organic Chemicals (VOCs)
                                                             Radionuclides
                                                             Nitrate and Nitrite
    Distribution System2       Peshawbestown, MI             Asbestos
                               Little Rock, MN               Total coliform
                               Conehatta, MS                 Chlorine
                               Hoag's Laundry, NY1           Disinfection Byproducts
                               Jimersontown, NY
                               Steamburg, NY
1
 This water system closed in October 2007, prior to OIG sampling activities.
2
 Due to time constraints or limited access to private homes, distribution system samples were
not collected from these systems.
Source: OIG analysis of independent data


Collecting and analyzing the drinking water samples was done according to an approved quality
control plan. The laboratories used to analyze the drinking water samples were certified by EPA
and the National Environmental Laboratory Accreditation Conference, Inc., and used EPA-
approved methods to analyze the samples. We ensured that the tribal CWSs do not use the
contracted laboratories to analyze their samples routinely collected to determine their compliance
with drinking water regulations.

Interviews with Tribal Community Water System Operators
While we conducted our site visits to the tribal CWSs operated by nine tribal nations, we asked
each water system operator questions about the following topics:

      •   The current and future operation/maintenance challenges faced by the system in trying to
          comply with drinking water regulations,
      •   Access to sufficient funds to properly operate and maintain the water system,
      •   The relationship between the tribal CWS and the EPA region’s tribal drinking water and
          tribal program staff,
      •   Reasons why the operator feels the water system has a good compliance record,
      •   Access to adequate technical assistance from EPA regions (and other sources, if
          applicable), and
      •   Any thoughts about what EPA regions could do better to assist the tribal CWS.




                                                        18
                                                                                                         08-P-0266


                                                                                                   Appendix B

                 Lab Slips Missing from Regional Files
Table B-1: Region 1 Missing Data

                             Missing
 Tribal CWS Name          Compliance Data             Compliance Period                          Notes
Mashantucket             SOCs                    1999-2001, 2002-2004               EPA did not inform the
Pequot                                           Missing 2nd quarterly              water system of revised
Point of Entry #1                                compliance result for each         compliance sampling due to
and                                              period for both points of          population increase.
Point of Entry #2                                entry.
Mashantucket             SOCs                    2005-2007                          EPA did not inform the
Pequot                                           Missing 2nd quarterly              water system of revised
Point of Entry #1                                compliance result for this         compliance sampling due to
                                                 period for one point of entry.     population increase.

Source: OIG analysis of EPA data

Table B-2: Region 2 Missing Data

                               Missing
 Tribal CWS Name            Compliance Data                              Compliance Period
                                                                rd
Shelton Park             Radionuclides                Missing 3 quarter of 4 consecutive quarters for initial
(Hoag’s III – MHP)                                    monitoring period.
                         Nitrate & Nitrite            2004, 2005, 2006
                         IOC - Asbestos*              2002 -2004
Hoag’s Laundry           Nitrate & Nitrite            2004, 2005, 2006
                         IOCs & SOCs & VOCs           2002-2004
Cattaraugus              Coliform                     January 2007
(Richardson Road)        IOCs & SOCs & VOCs           2002-2004
Steamburg WS             Chlorine Residual            April through July – 2007
                         Nitrate & Nitrite            2004, 2005, 2006
                         IOC - Asbestos*              2002-2004
Jimersontown             Chlorine Residual            April through July – 2007
                         Nitrate & Nitrite            2004, 2005, 2006
                         IOC - Asbestos*              2002-2004
Cattaraugus              Coliform                     January 2007
(Erie County –
purchased water)
*No waiver - Region 2 e-mail of 1/11/08 maintaining that there are no asbestos pipes within the Jimersontown,
Steamburg, and Hoag’s Mobile Home Park (Shelton Park) Water Systems.

Source: OIG analysis of EPA data




                                                        19
                                                                                        08-P-0266




Table B-3: Region 4 Missing Data

   Tribal CWS          Missing            Compliance
      Name          Compliance Data         Period                          Notes
MBCI Bogue         TTHM and HAA5       2005, 2006         Not in Region 4's files; MSDH reduced
Chitto                                                    monitoring to triennially
                   IOC (Asbestos only) 1999-2001; 2002-   MSDH waiver; no copy in Region 4's files
                                       2004
                   SOCs (all)          1999-2001; 2002-   MSDH waiver; no copy in Region 4's files
                                       2004
                   VOCs (all)          2005; 2006         MSDH 6-year waiver; no copy in Region
                                                          4's files
                   Radionuclides       4 consecutive
                                       quarters after
                                       December 8, 2003

MBCI Conehatta TTHM and HAA5           2005, 2006         Not in Region 4's files; MSDH reduced
                                                          monitoring to triennially
                   Nitrate             2004
                   Nitrite             2004
                   IOC (Asbestos only) 1999-2001; 2002-   MSDH waiver; no copy in Region 4's files
                                       2004
                   SOCs (all)          1999-2001; 2002-   MSDH waiver; no copy in Region 4's files
                                       2004
                   VOCs (all)          2005; 2006         MSDH 6-year waiver; no copy in Region
                                                          4's files
                   Radionuclides       4 consecutive
                                       quarters after
                                       December 8, 2003
MBCI Pearl         TTHM and HAA5       2005, 2006         Not in Region 4's files; MSDH reduced
River                                                     monitoring to triennially
                   Nitrate             2006               Not in Region 4's files
                   Nitrite             2006
                   IOC (Asbestos only) 1999-2001; 2002-   MSDH waiver; no copy in Region 4's files
                                       2004
                   VOCs (all)          2005; 2006         MSDH 6-year waiver; no copy in Region
                                                          4's files
                   Radionuclides       4 consecutive
                                       quarters after
                                       December 8, 2003

Source: OIG analysis of EPA data




                                                20
                                                                                               08-P-0266


Table B-3: Region 4 Missing Data (continued)

   Tribal CWS          Missing                 Compliance
      Name          Compliance Data              Period                          Notes
MBCI Tucker        TTHM and HAA5            2005, 2006          Not in Region 4’s files; MSDH reduced
                                                                monitoring to triennially
                   IOC (Asbestos only) 2002-2004                Eligible for MSDH waiver
                   SOCs (all)               2002-2004           MSDH waiver; no copy in Region 4's files
                   VOCs (all)               2005; 2006          MSDH 6-year waiver; no copy in Region
                                                                4's files
                   Radionuclides            4 consecutive
                                            quarters after
                                            December 8, 2003
Seminole           Nitrite                  2006
Immokalee          SOC (Dioxin only)        2002-2004           Florida does not require public water
                                                                system to test for dioxin; Region 4 made
                                                                operators aware that they do need to test
                                                                for dioxin in the current compliance
                                                                period (2005-2007)
                   Radionuclides            4 consecutive
                                            quarters after
                                            December 8, 2003

Source: OIG analysis of EPA data

Table B-4: Region 5 Missing Data

                                Missing
 Tribal CWS Name             Compliance Data                      Compliance Period
Redby/Red Lake         Cadmium                     1999-2001
Ponemah
Little Rock
Redby/Red Lake         Asbestos                    2002-2004
Ponemah
Little Rock
Peshawbestown          VOCs                        1999-2001

Neopit and Keshena Fluoride                        2002-2004
Source: OIG analysis of EPA data

Table B-5: Region 8 Missing Data

                                Missing
                               Compliance          Compliance
  Tribal CWS Name                Data                Period                      Notes
 None
Source: OIG analysis of EPA data




                                                      21
                                                                                         08-P-0266



                                                                                     Appendix C


                                 Agency Response

                                         September 4, 2008

MEMORANDUM

SUBJECT:       EPA Assisting Tribal Water Systems but Needs to Improve Oversight, Project
               No. 2007-000873, Draft Report

FROM:          Benjamin H. Grumbles
               Assistant Administrator

TO:            Dan Engelberg
               Director of Program Evaluation
               Office of Inspector General

       Thank you for the opportunity to comment on your Office’s draft report, EPA Assisting
Tribal Water Systems but Needs to Improve Oversight. I will respond briefly to the overall
findings, with more detailed responses to your recommendations and technical comments
attached.

        The report found that Tribal drinking water supplies consistently met regulatory
requirements and regional Environmental Protection Agency (EPA) staff made correct
compliance decisions. However, internal control deficiencies existed in two regions, and four
regions could improve their records management. Over the past several years, the EPA has been
working to implement programs from the Safe Drinking Water Act (SDWA) as they apply to
tribal public water systems. EPA has identified areas for improvement in regional
implementation of the SDWA through the data verification process, and the regions have
updated their procedures to address many of these issues. Proper oversight and records
maintenance is the foundation of compliance and is necessary for achieving EPA’s primary
mission of public health protection.

        EPA’s goal is that all consumers receive drinking water that consistently meets public
health standards, no matter where the consumer is receiving water. The national water program
has always expected EPA Regions implementing the Tribal drinking water program to follow the
same requirements and guidelines that EPA develops for states. This expectation, while being
implemented in most cases, has never been formally documented. The national water program
agrees with the recommendations in the draft report to clarify these procedures. We plan to issue
guidance regarding these expectations in FY 2009.

        Regions 2 and 4 have already taken specific actions to address issues raised during this
investigation. Region 2 is in the process of addressing the incomplete reporting of Tribal


                                                22
                                                                                       08-P-0266


monitoring and reporting (M/R) violations of the Safe Drinking Water Act to the federal
database. The Region intends to report historical M/R violations that were missed and ensure
that all future violations are reported in a timely manor. Region 4 is coordinating with the
Mississippi State Department of Health regarding record keeping practices, and accuracy and
completeness of Safe Drinking Water Information System (SDWIS) data. They are also writing
a formal waiver policy and developing an electronic filing system to improve the accuracy of the
files. The national water program also plans to use the most recent set of regional data
verifications to improve oversight of the EPA Tribal drinking water program.

       Thank you again for the opportunity to comment on the draft report. If you have
questions regarding our comments, please contact Nanci E. Gelb, Deputy Director, Office of
Ground Water and Drinking Water, at (202) 564-3750.

Attachments




                                               23
                                                                                       08-P-0266



                                      Attachment 1
                             EPA Response to Recommendations

Recommendation 2-1: Establish national and regional tribal drinking water program
Standard Operating Procedures in coordination with regional offices. The Standard
Operating Procedures should include:

       a)        Documenting waiver determinations made by regions, and where
                 appropriate, similar determinations made by states,
       b)        Documenting the roles, contractual relationships, and agreements between
                 EPA, states, and tribes where the three parties share responsibilities of the
                 tribal drinking water program,
       c)        Following records retention guidelines as required by 40 CFR 141 and 40
                 CFR 142 and guidance from the Office of Water, and
       d)        Entering violations into SDWIS.

Response: The national water program has always had the expectation that the EPA Regions
implementing the Tribal drinking water program should follow the same requirements and
guidelines that EPA develops for states. However, this expectation has never been formally
documented. The national water program agrees that it is appropriate to clarify these
expectations and plans to issue guidance regarding these procedures in FY 2009.

Region 4 has already taken steps to address issues raised in the report. Specifically, record
keeping practices, communication and coordination with the Mississippi State Department of
Health (MSDH), and accuracy and completeness of the SDWIS/State data have been improved.
Region 4 is writing a formal waiver policy and creating a record for each water system file to
document the specifics of the waiver. An electronic filing system is being developed to improve
the accuracy of the files. Region 4 has contacted the State of Mississippi to ensure that no
duplication of water systems exists in the SDWIS/Fed inventory. The State confined by email on
July 24, 2008 that the Choctaw water systems were removed from the State's inventory.

Recommendation 2-2: Require Region 2 to submit a plan that corrects deficiencies in how
it currently implements its tribal drinking water program, including those identified in this
report. Once submitted, ensure that all the elements of the plan are completed.

Response: The national water program agrees that Region 2 needs to make significant
improvements to its Tribal drinking water program and supports the development and
implementation of an improvement plan. We expect this plan to be developed in FY 2009 and
implemented shortly after it is completed.

Region 2 is in the process of addressing the incomplete reporting of Tribal monitoring &
reporting (M/R) violations of the Safe Drinking Water Act to the federal database, SDWIS/FED.

The Region’s plan is to report historical M/R violations that were missed and ensure that all
future violations are reported in a timely manor. This data management and reporting process is



                                               24
                                                                                       08-P-0266


to be more formalized by using the SDWIS/STATE software, which was just recently installed
on the Region’s network server.

Region 2 also plans to make the data in SDWIS/STATE available to the public via Drinking
Water Watch on the Region 2 web page. Drinking Water Watch is an Internet portal to
SDWIS/STATE that will allow citizens to directly access drinking water compliance data and
other information for water systems on tribal lands and encourage more public accountability
regarding water quality.

Recommendation 2-3: Direct regions to issue monitoring and reporting violations, take
appropriate enforcement actions against tribal CWSs with health-based violations or who
fail to monitor or submit monitoring reports, and enter violations into SDWIS.

Response: As with the first recommendation, the national water program has always had the
expectation that the EPA Regions implementing the Tribal drinking water program should follow
the same requirements and guidelines that EPA develops for states. The national water program
agrees that it is appropriate to clarify these expectations and plans to issue guidance regarding
these procedures in FY 2009.




                                               25
                                                                                        08-P-0266


                                       Attachment 2
                           Specific Comments on the Draft Report


Page 2: The Report references an IHS “Sanitary Deficiency Survey”. This terminology is
incorrect. We recommend that you revise as follows: “The Indian Health Service, through
collaboration with tribes, identifies CWS infrastructure needs and enters this data in the
Sanitation Deficiency System.”

Page 3: Please add another noteworthy accomplishment: EPA is working with its Federal
partners on approaches to meeting EPA's strategic goal to reduce by half the number of homes
lacking access to safe drinking water and safe waste water disposal by 2015.

Page 6: In the first full paragraph, the second to last sentence should read “… June 2000 to
December 2003 grandfather period.”

Page 10: Please revise the final sentence as follows: “Three of the six Regions we interviewed
consider information in the Indian Health Service's Sanitation Deficiency System when
prioritizing tribal drinking water system infrastructure needs and Drinking water State Revolving
Fund infrastructure grants.”

Page 11: Although the OIG took samples in five regions, interviews were conducted in six
regions. All nine regions with Tribal drinking water programs offer a variety of technical and
assistance activities. The first sentence under “Conclusions and Recommendations” should more
clearly state “The six regions interviewed . . .”




                                                26
                                                                              08-P-0266


                                                                            Appendix D

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Water
Deputy Assistant Administrator, Office of Water
Director, Office of Ground Water and Drinking Water
Deputy Director, Office of Ground Water and Drinking Water
Director, American Indian Environmental Office
Acting Deputy Director, American Indian Environmental Office
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Water
Office of General Counsel
Deputy Inspector General




                                             27
